BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Record s

CERTIFICATE OF SERVICE
I , Emily Mullins, hereby certify that 1 copy of the
foregoing Petition for a Writ of Certiorari in Jairo
Acosta, Police Officer for the City of Los Banos v. Tan
Lam, as Successor-in-Interest to decedent Sonny Lam
(aka Son Tung Lam), was sent via Next Day Service to
the U.S. Supreme Court, and via e-mail and Next Day
service to the following parties listed below, this 15th
day of April, 2021:
John L. Burris
The Law Offices of John L. Burris
Airport Corporate Center
#1120
7677 Oakport Street
Oakland, CA 94621
510-839-5200
john. burris@johnburrislaw.com
Ayana C. Curry
The Law Offices of John L. Burris
Airport Corporate Center
Suite 1120
7677 Oakport Street
Oakland, CA 94621
510-325-2352
ayana.curry@johnburrislaw.com
Melissa Catherine Nold
Nold Law
521 Georgia Street
Vallejo, CA 94590
707-644-4004
melissa@noldlaw.com

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED
(800) 890.5001

www.beckergallagher.com

I 8790 Governor's Hill Drive
Suite l 02
Cincinnati, Ohio 45249

Franklin Square
' 1300 I Street , NW, Suite 400E
Washington , DC 20005

Atlante D. Pointer
Pointer & Buelna, LLP
Wells Fargo Center
1901 Harrison Street
Suite 1140
Oakland, CA 94612
510-929-5400
apointer@lawyersftp.com
Counsel for Respondents
Suzanne M. Nicholson
Counsel of Record
Attorney at Law
770 L Street, Suite 950
Sacramento, CA 95814
Tel: 916-361-6551
suzanne@smnlegal.com
Dale Allen
Kevin P. Allen
Allen, Glaessner, Hazelwood & Werth, LLP
180 Montgomery Street
Suite 1200
San Francisco, CA 94104
kallen@aghwlaw.com
Counsel for Petitioner

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on April 15, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public
[seal]

JOHN 0. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
F<=br•JO •v 14 2n,13

